United States v. Freeman, 964 F.3d 774 (2020)

On appeal from the denial of a defendant's
motion to suppress, the Court of Appeals reviews
the District Court's legal conclusions de novo and
the factual findings for clear error.

964 F.3d 774
United States Court of Appeals, Eighth Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Maurice FREEMAN, Defendant-Appellant.
No. 19-2055
|
Submitted: February 13, 2020
|
Filed: July 10, 2020
|
Rehearing and Rehearing En
Banc Denied August 24, 2020
Synopsis
Background: In prosecution for being a felon in possession
of a firearm, the United States District Court for the Western
District of Missouri, Brian C. Wimes, J.,2018 WL 3352666,
adopted the report and recommendation of Sarah W. Hays,
United States Magistrate Judge, and denied defendant's
motion to suppress, and defendant entered a conditional guilty
plea. Defendant appealed.

[2]

[3]

[4]

[5]

Criminal Law
obtained

Evidence wrongfully

Arrest
Reasonableness; reason or founded
suspicion, etc

Courts

Concurrence in Adjudication

Though it may be persuasive, the Court of
Appeals is not bound by a Supreme Court
concurring opinion when it accompanies a
majority opinion.

West Headnotes (6)
Review De Novo

Grounds for Stop or Investigation

Brief detention of occupant of vehicle parked on
the street near house, in anticipation of execution
of warrant to search the house for suspect in a gun
shooting and bank robbery, was reasonable under
Fourth Amendment; suspect's accomplice was
still at large, suspect had twice left the house and
suspect had interacted with vehicle's occupants,
vehicle occupants, if armed, posed real threat to
officer safety, occupants could have exited the
vehicle and interfered with execution of warrant,
and an onlooker would not necessarily think
that vehicle's occupants were targets of police
activity. U.S. Const. Amend. 4.

Stras, Circuit Judge, filed an opinion concurring in the
judgment.

Criminal Law

Arrest

Three justifications support a detention of
occupants, during execution of a warrant to
search premises: officer safety, facilitating the
completion of the search, and preventing flight
detention of occupants. U.S. Const. Amend. 4.

Affirmed.

[1]

Grounds for Stop or Investigation

A warrant to search premises for contraband,
founded on probable cause, implicitly carries
with it the limited authority to detain the
occupants of the premises while a proper search
is conducted. U.S. Const. Amend. 4.

[Holding:] The Court of Appeals, Smith, Chief Judge, held
that brief detention of defendant as occupant of vehicle
parked on street near house, in anticipation of execution of
warrant to search the house for suspect in a gun shooting and
bank robbery, was reasonable under Fourth Amendment.

Procedural Posture(s): Appellate Review; Pre-Trial Hearing
Motion.

Arrest

[6]

Arrest

Grounds for Stop or Investigation

App A
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Freeman, 964 F.3d 774 (2020)

In closer cases, courts can consider a number
of factors to determine whether an occupant
was detained within the immediate vicinity
of the premises to be searched pursuant to
warrant, when determining the reasonableness
of the detention under the Fourth Amendment,
including the lawful limits of the premises,
whether the occupant was within the line of sight
of the premises, the ease of reentry from the
occupant's location, and other relevant factors.
U.S. Const. Amend. 4.

*775 Appeal from United States District Court for the
Western District of Missouri–Kansas City
Attorneys and Law Firms
Rebecca L. Kurz, Asst. Fed. Public Defender, Kansas City,
MO, argued (Laine Cardarella, Fed. Public Defender, on the
brief), for defendant-appellant.
David Wagner, Asst. U.S. Atty., Kansas City, MO, argued
(Timothy A. Garrison, U.S. Atty., David A. Raskin, Asst. U.S.
Atty., on the brief), for plaintiff-appellee.
Before SMITH, Chief Judge, COLLOTON and STRAS,
Circuit Judges.
Opinion
SMITH, Chief Judge.
*776 Maurice Freeman appeals his conviction on an illegal
weapons charge. Freeman argues that the police violated his
Fourth Amendment rights by detaining him while executing
a warrant on a residence he was parked near. Given the
circumstances of the detention, we disagree and affirm the
district court. 1

I. Background
Police searched for the two perpetrators of a bank robbery and
shooting. They identified one suspect as Derrick Ashley, Jr.,
but the identity of the other remained unknown. Investigation
led law enforcement to a house in St. Joseph, Missouri. To
acquire information for a warrant application, a detective
watched the St. Joseph house to see if Ashley was inside. As

he drove past the residence, the detective observed a tan car
parked directly in front of the residence and a silver Pontiac
with two occupants parked behind the tan car. The detective
parked a short distance away.
Eventually, the detective saw Ashley walk out of the house
and speak with the Pontiac's passengers. The Pontiac drove
away soon thereafter but returned less than an hour later.
It parked behind a Cadillac, which had parked behind the
tan car while the Pontiac was away. Ashley again exited the
residence and walked to the Pontiac. He took a bag of dog
food from the car and returned inside. Law enforcement used
the information the surveilling detective gathered to obtain a
search warrant for the house Ashley occupied.
Special response team officers then arrived in an armored car
and parked in front of the house. The surveilling detective
and multiple officers walked up the street to help secure the
cars’ occupants. As they approached the Pontiac, which had
an open sunroof, the officers smelled marijuana. 2 One officer
looked into the Pontiac and saw the driver lean forward. The
driver was later identified as Maurice Freeman. Believing
Freeman was attempting to conceal something in or retrieve
something from the floorboard, the officer ordered the car's
occupants to turn the engine off and raise their hands.
Freeman and the other passenger were removed from the car,
handcuffed, and taken to the armored vehicle. Based on the
smell of marijuana, officers searched the car. That search
revealed a handgun and a pill bottle that appeared to contain
marijuana; Freeman admitted the gun was his. Freeman was
arrested, and police later found methamphetamine on his
person.
A grand jury indicted Freeman with felony possession of
a firearm. See
18 U.S.C. §§ 922(g)(1),
924(a)(2).
Freeman moved to suppress all of the evidence discovered in
the Pontiac. He argued that the warrant did not cover his car
and that the police lacked reasonable suspicion to stop him.
A magistrate judge recommended that the district court
deny the motion. The magistrate judge found a sufficient
nexus between the car's occupants and Ashley—a dangerous
suspect—to justify the officers’ decision to secure the car's
occupants and ensure officer safety during the warrant's
execution. The magistrate judge found the *777 officers
developed probable cause to search the car and arrest its
passengers based on the emanation of the strong smell of
marijuana. The district court adopted the magistrate's findings

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Freeman, 964 F.3d 774 (2020)

and denied Freeman's motion. Freeman conditionally pleaded
guilty and was sentenced to 37 months’ imprisonment.

accomplish that goal.
Id. Further, the detention did not
significantly add to the public stigma caused by the search
itself.

II. Discussion
[1] On appeal, Freeman challenges the district court's denial
of his suppression motion. We review the court's “legal
conclusions de novo and factual findings for clear error.”
United States v. Morris, 915 F.3d 552, 555 (8th Cir. 2019)
(internal quotation omitted).

Id. at 702, 101 S.Ct. 2587.

The Court also found that the police had valid justifications
for the detention. First and “[m]ost obvious [wa]s the
legitimate law enforcement interest in preventing flight in
the event that incriminating evidence [wa]s found.”
Id.
Second and “sometimes of greater importance, [wa]s the
interest in minimizing the risk of harm to the officers.”

Id. And third, the Court found that officers have an
[2] [3] The Supreme Court has recognized “that a warrant
interest in “the orderly completion of the search,” which “may
to search for contraband founded on probable cause implicitly
be facilitated if the occupants of the premises are present.”
carries with it the limited authority to detain the occupants
Id. at 703, 101 S.Ct. 2587.
of the premises while a proper search is conducted.”
Michigan v. Summers, 452 U.S. 692, 705, 101 S.Ct.
2587, 69 L.Ed.2d 340 (1981) (footnotes omitted). When
determining whether a detention is permissible, the Court
has considered “[1] the character of the official intrusion

*778

In

Bailey, the Court addressed “whether

Michigan v. Summers justifies the detention of
occupants beyond the immediate vicinity of the premises

and [2] its justification.”
Id. at 701, 101 S.Ct. 2587.
When weighing the character of the intrusion, the Court has
examined the intrusiveness of the detention and the stigma the

covered by a search warrant.”
568 U.S. at 192, 133 S.Ct.
1031. There, officers watched two individuals drive away
from an apartment that was the subject of a search warrant.

detention carried. See

Id. at 190, 133 S.Ct. 1031. While some officers began the
search, others followed and stopped the occupants about a

id. at 701–02, 101 S.Ct. 2587;

see also
Bailey v. United States, 568 U.S. 186, 200, 133
S.Ct. 1031, 185 L.Ed.2d 19 (2013). The Court has identified
three justifications that support a detention: “officer safety,
facilitating the completion of the search, and preventing
flight.”

Bailey, 568 U.S. at 194, 133 S.Ct. 1031; see also

Summers, 452 U.S. at 702–04, 101 S.Ct. 2587.
[4] Applying

the

Summers and

Supreme

Court's

analysis

in

Bailey, we conclude Freeman's brief

mile from the apartment.

Id. They then handcuffed the

occupants and brought them back to the home.
133 S.Ct. 1031.

Id. at 191,

The Court observed that its cases so far had only considered
“occupants detained ... within or immediately outside
a residence at the moment the police officers executed
the search warrant.”

Id. at 193, 133 S.Ct. 1031. In

detention 3 was permissible. In
Summers, police had
a search warrant for the defendant's home and detained the
defendant, who was stopped walking down the steps of

determining
Summers’s scope, the Court noted that
“[a]n exception to the Fourth Amendment rule prohibiting
detention absent probable cause must not diverge from

the house during the warrant's execution.
452 U.S. at
693–94, 101 S.Ct. 2587. The Court upheld that detention.

its purpose and rationale.”
Id. at 194, 133 S.Ct. 1031.
Therefore, it considered “the reasons for the rule explained in

Id. at 705, 101 S.Ct. 2587. Considering the character
of the intrusion, the Court found that the detention “was
surely less intrusive than the search [of the home] itself.”

Summers to determine if its rationale extend[ed] to a

Id. at 701, 101 S.Ct. 2587. In addition, the occupant's
detention was not likely to be exploited to gain incriminating
information because the police already had a valid warrant to

detention like the one” before it.

Id.

The Court analyzed the three justifications for a detention
recognized in

Summers, and it stated that the

occupants “posed little risk to the officers at the scene,”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

id.
3

United States v. Freeman, 964 F.3d 774 (2020)

at 196, 133 S.Ct. 1031, because they “left the premises ...
without knowledge of the search.”
Id. at 195–96, 133
S.Ct. 1031. Further, the officers could have mitigated any
risk posed by their return “by taking routine precautions, for
instance by erecting barricades or posting someone on the
perimeter.”
Id. at 195, 133 S.Ct. 1031. As for the orderly
execution of the warrant, the Court concluded that a departed
occupant does not pose a risk of “hid[ing] or destroy[ing]
evidence, seek[ing] to distract the officers, or simply get[ting]
in the way.”
Id. at 197, 133 S.Ct. 1031. Lastly, the Court
considered the officers’ interest in preventing flight, which
“serves to preserve the integrity of the search by controlling
those persons who are on the scene.”
Id. at 198, 133 S.Ct.
1031. It reasoned that “[t]he concern over flight is not because
of the danger of flight itself but because of the damage that
potential flight can cause to the integrity of the search.” Id.
at 199, 133 S.Ct. 1031. That “does not independently justify
detention of an occupant beyond the immediate vicinity of
the premises to be searched.”

Id.

As for the character of the intrusion, the Court decided that
a detention away from one's home is a significant intrusion
on personal liberty because of the stigma it carries.
Id. at
199–200, 133 S.Ct. 1031. “A public detention, even if merely
incident to a search, will resemble a full-fledged arrest.”
Id. at 200, 133 S.Ct. 1031. Further, “detention beyond
the immediate vicinity can involve an initial detention away
from the scene and a second detention at the residence. In
between, the individual will suffer the additional indignity
of a compelled transfer back to the premises, giving all the
appearances of an arrest.”

Id.

In light of those factors, the Court placed “[a] spatial
constraint” on

Summers, limiting it to “the immediate

vicinity of the premises to be searched.”
Id. at 201, 133
S.Ct. 1031. Because the petitioner was almost a mile from
his home at the time of his detention, the Court determined
that

Summers did not apply.

1031; see also

Id. at 201–02, 133 S.Ct.

United States v. Sherrill, 27 F.3d 344, 346

(8th Cir. 1994) (finding that
Summers did not justify a
stop made down the street from a house because “the officers
had no interest in preventing flight or minimizing the search's

risk because [the defendant] had left the *779 area of the
search and was unaware of the warrant”).
Freeman argues that the justifications articulated in
Summers and
Bailey do not support the detention
here. We disagree. As to officer safety, the Court in
Summers recognized that “[a]lthough no special
danger to the police is suggested by the evidence in this
record, the execution of a warrant to search for narcotics
is the kind of transaction that may give rise to sudden
violence or frantic efforts to conceal or destroy evidence.”
Summers, 452 U.S. at 702, 101 S.Ct. 2587. The
same could be said of the search warrant here. The officers
were seeking Ashley, the suspect of a gun shooting and
bank robbery. The execution of a warrant for such an
individual qualifies as one that “may give rise to sudden
violence or frantic efforts to conceal ... evidence” or escape.
Id. Further, Ashley's accomplice was still at large,
and the police observed Ashley twice interacting with the
Pontiac's passengers. Officers testified that the Pontiac and
its passengers were either three car lengths from the home
or between the house and residence to the north. That placed
the passengers “within the line of sight of [the] dwelling.”
Bailey, 568 U.S. at 201, 133 S.Ct. 1031. If armed, those
passengers “pose[d] a real threat to the safe and efficient
execution of [the] search warrant.”
Id. Given that threat;
the Pontiac's passengers’ “connection to the residence to be
searched,”
id. at 197, 133 S.Ct. 1031; and the dangerous
suspect therein, a concern for officer safety justified the brief
detention which occurred here.
Next, the Court has observed that officers’ interest in “the
orderly completion of the search .... derives from distinct ...
concerns.”
Id. (internal quotation omitted). “If occupants
are permitted to wander around the premises, there is
the potential for interference with the execution of the
search warrant. They can hide or destroy evidence, seek
to distract the officers, or simply get in the way.”
Id.
Though not within the house, the same can be said of the
Pontiac's passengers here. They were present at the scene
and could have exited their vehicle to interfere with the
search for and arrest of Ashley. Therefore, the interest in an
orderly execution of the search warrant also provided some
justification for the detention of the vehicle's occupants.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Freeman, 964 F.3d 774 (2020)

As for the interest in preventing flight, the officers’ main
focus was certainly preventing Ashley's escape from the
premises, not the passengers in the car. Still, the Court has
provided that the interest in preventing flight, much like the
orderly completion of the search interest, “serves to preserve
the integrity of the search by controlling those persons who
are on the scene.”
Id. at 198, 133 S.Ct. 1031. On these
facts, this factor does not favor the detention. But it, by itself,
does not outweigh the first two interests here.
Freeman argues that, even if there were valid justifications
for the search, the character of the detention takes it outside
of the scope of
Summers. See
452 U.S. at
703–04, 101 S.Ct. 2587. Admittedly, unlike the occupant
in
Summers, Freeman had neither the protections
that a search warrant provides nor did he face the liberty
infringement one creates. See
id.; see also
Bailey,
568 U.S. at 200, 133 S.Ct. 1031 (“Because the detention
occurs in the individual's own home, it could add only
minimally to the public stigma associated with the search
itself and would involve neither the inconvenience nor the
indignity associated with a compelled visit to the police
station.” (internal quotation omitted)). Still, the Court's
Bailey analysis does not turn on the presence of a warrant.
Rather, in analyzing the intrusion on liberty, the Court has
focused on the facts surrounding *780 the detention and
the “stigma associated with the search.” See
Bailey, 568
U.S. at 200, 133 S.Ct. 1031 (internal quotation omitted);
Summers, 452 U.S. at 703–05, 101 S.Ct. 2587.
Considering the instant facts, the intrusion on Freeman's
liberty and the associated stigma are dissimilar to those that
rendered detentions invalid. In those cases, individuals were
driving away from the home and were already well beyond
its premises before police officers stopped them and brought
them back to the house. See

Bailey, 568 U.S. at 200,

133 S.Ct. 1031;
Sherrill, 27 F.3d at 345–46. Freeman, in
contrast, was sitting in his car parked near the premises to
be searched when the stop occurred; he continued sitting in
the car after he was blocked in. In other words, the initial
detention that Freeman challenges did not alter his course of
conduct. True, he no longer had a choice to immediately leave
the scene, which is certainly an impingement of his liberty.
But these facts differ materially from chasing an individual
down, handcuffing him publicly, placing him in a marked

patrol car, and carrying him almost a mile to the home being
searched. See

Bailey, 568 U.S. at 190–91, 133 S.Ct. 1031.

For similar reasons, Freeman did not suffer a significant
public stigma. The officers tasked with securing the
occupants of the car walked up the street. Prior to detecting
the marijuana smell emanating from the car and seeing
Freeman's furtive movements, officers had their guns low
and ready—not trained on the car or its occupants. Given
this context, an onlooker would not necessarily think that the
Pontiac's occupants were the targets of the police activity.
Again, that is not equivalent to the stigma associated with
stopping an individual in public, handcuffing him, and driving
him back to his home.
1031;

Bailey, 568 U.S. at 200, 133 S.Ct.

Sherrill, 27 F.3d at 345–46. Considering the Court's

justifications in
Summers and
Bailey, we hold
the officers’ brief detention of the occupants of Freeman's
vehicle—who had recent contact with the suspected felon
and remained parked within the immediate vicinity of the
premises to be searched—was permissible.
Freeman argues that
Summers is a categorical rule
“appl[ying] only to seizures of occupants—that is, persons
within the immediate vicinity of the premises to be
searched.” Bailey, 568 U.S. at 203, 133 S.Ct. 1031 (Scalia,
J., concurring) (internal quotations omitted). He argues that
he was neither an occupant of the home nor was he within
the immediate vicinity of the home's premises.
[5] First, we note that even if Justice Scalia's categorical rule
bound us, 4 Freeman's arguments misconstrue it. Freeman
appears to argue that the rule requires an individual to both
be (1) an occupant of the home and (2) within the home's
immediate vicinity. Yet, per Justice Scalia's language, an
occupant is defined by his or her location—i.e., *781 an
occupant is a “person[ ] within the immediate vicinity of
the premises to be searched.” See
Bailey, 568 U.S. at 203,
133 S.Ct. 1031 (Scalia, J., concurring) (internal quotation
omitted).
[6] The
Bailey majority provided several factors to
determine whether a person is within the immediate vicinity
of the premises to be searched:

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Freeman, 964 F.3d 774 (2020)

they were not inside the residence or present when police first
In closer cases courts can consider
a number of factors to determine
whether an occupant was detained
within the immediate vicinity of the
premises to be searched, including the
lawful limits of the premises, whether
the occupant was within the line of
sight of his dwelling, the ease of
reentry from the occupant's location,
and other relevant factors.

Id. at 201, 133 S.Ct. 1031. It also expressed that “[l]imiting
the rule in
Summers to the area in which an occupant
poses a real threat to the safe and efficient execution of
a search warrant ensures that the scope of the detention
incident to a search is confined to its underlying justification.”
Id. (emphasis added).
Freeman was within the line of sight of the dwelling and
potentially posed a real threat to the safe and efficient
execution of the search. The Pontiac was either three car
lengths from the home or between Ashley's house and the
house immediately adjacent to the north, and the officers
observed Ashley, a potentially dangerous suspect, interact
with its occupants. Further, even though it was not within the
lawful limits of the premises, the car placed Freeman close
enough to allow easy access to the home. Given these facts,
we hold that Freeman was in the immediate vicinity of the
home. Therefore, Freeman was an occupant even under his
proffered categorical rule.
Second, even if the occupant and immediate vicinity
questions are separate requirements, Freeman constituted
an occupant under persuasive case law. For instance, the
Sixth Circuit has found that individuals similarly situated to
Freeman constitute occupants. See
Burchett v. Kiefer,
310 F.3d 937, 943 (6th Cir. 2002) (“We have extended police
officers’ powers under
Summers in two important
respects. First, ... this court ruled that the Supreme Court's
discussion of ‘occupants’ in
Summers included
nonresidents who are present at the scene of a search when
police arrive. ... Second, ... we ruled that officers could also
detain individuals who arrive at the scene of a search, even if

arrived.”). In addition, applying the
Summers rationale
to a Terry stop, we have allowed officers to stop a vehicle
on the street in front of a home that was the subject of a
search warrant. See United States v. Martinez-Cortes, 566
F.3d 767, 770–71 (8th Cir. 2009); see also
United States
v. Jennings, 544 F.3d 815, 818–19 (7th Cir. 2008) (finding
that
Summers supported the stop of an individual who
“never stepped onto the property being searched” because
his presence within the security perimeter posed a threat
to officers executing a high-risk search warrant). Applying
these cases, Freeman—a passenger of a car parked on a
street in front of a premises subject to a search warrant
who was connected to the premises's occupant—was also an
“occupant” under

Summers.

In sum, we find that Freeman's initial detention was
permissible under the Supreme Court's rationale in
Summers. Thus, the officers’ (1) brief detention of
the Pontiac's passengers and (2) approach of the car were
constitutionally permissible. 5 *782 During that approach,
the officers developed probable cause to search the car
when they smelled marijuana and saw Freeman's furtive
movements. See Beard, 708 F.3d at 1065. As a result, their
brief seizure of Freeman and subsequent search of the vehicle
based on probable cause was constitutional. The district court
did not err in denying Freeman's motion to suppress.

III. Conclusion
For those reasons, we affirm.
STRAS, Circuit Judge, concurring in the judgment.
This case is factually indistinguishable from United States v.
Jones, 471 F.3d 868 (8th Cir. 2006). Compare id. at 870–71,
875, with ante at 2–3. See United States v. Martinez-Cortes,
566 F.3d 767, 770–71 (8th Cir. 2009). Rather than trying to
reinvent the wheel, I would simply rely on Jones and say
nothing more. 6 See Mader v. United States, 654 F.3d 794,
800 (8th Cir. 2011) (en banc).
All Citations
964 F.3d 774

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

United States v. Freeman, 964 F.3d 774 (2020)

Footnotes
1
2
3

4

The Honorable Brian C. Wimes, United States District Judge for the Western District of Missouri.
The smell of marijuana was so pungent that an officer who smelled the Pontiac at the impound garage called
one of the investigating officers and asked if a large amount of marijuana had been seized from the car.
Freeman was eventually removed from his car, handcuffed, and placed in the armored vehicle. However,
those facts are not relevant to our inquiry because they arose once the police smelled the marijuana and
saw Freeman's furtive hand movements. In other words, those facts arose after the police had independent
probable cause. See United States v. Beard, 708 F.3d 1062, 1065 (8th Cir. 2013). Because of that, they are
not relevant in weighing the allegedly improper aspects of Freeman's detention: the officers’ decision to block
the Pontiac in and approach the vehicle.
Though it may be persuasive, we are not bound by a Supreme Court concurrence when it accompanies a
majority opinion. See United States v. Duvall, 740 F.3d 604, 610 (D.C. Cir. 2013) (Kavanaugh, J., concurring)
(“Justices who join the majority may of course express additional thoughts in a concurrence, but concurrences
do not bind lower courts in cases where there is a majority opinion.”);
Ainsworth v. Moffett Eng'g, Ltd., 716
F.3d 174, 178 (5th Cir. 2013) (“The reasoning of a Supreme Court opinion that does not command a majority
vote is not binding precedent.”);
Brzonkala v. Va. Polytechnic Inst. & State Univ., 169 F.3d 820, 878 (4th
Cir. 1999) (en banc) (“Justice Brennan's ... views in dissent, of course, are not binding authority, any more

5

6

than are Justice Clark's ... in concurrence.”), aff'd sub nom.
United States v. Morrison, 529 U.S. 598, 120
S.Ct. 1740, 146 L.Ed.2d 658 (2000).
The parties disagree about when the initial detention occurred. Freeman argues that it occurred when the
armored vehicle blocked him in, and the government argues that it occurred when the officers told Freeman
to shut off the car and put his hands up. Assuming without deciding that the officers detained Freeman when
they blocked his car in, we find that the detention was lawful for the reasons discussed above.
The court's unwillingness to rely on Jones is all the more problematic in light of its confusing discussion of
the

Michigan v. Summers line of cases. Compare

Bailey v. United States, 568 U.S. 186, 193, 133

S.Ct. 1031, 185 L.Ed.2d 19 (2013) (explaining that the “categorical” rule from

Summers “does not

depend on the ... extent of the intrusion” (quoting
Muehler v. Mena, 544 U.S. 93, 98, 125 S.Ct. 1465, 161
L.Ed.2d 299 (2005)) (emphasis added)); Lykken v. Brady, 622 F.3d 925, 932 (8th Cir. 2010) (agreeing that
the

Summers rule is “categorical”);

United States v. Jennings, 544 F.3d 815, 818 (7th Cir. 2008)

(same), with ante at 9 & n.4 (suggesting that we are “not bound” to apply
rule”).

End of Document

Summers as a “categorical

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-2055
United States of America
Appellee
v.
Maurice Freeman
Appellant

______________________________________________________________________________
Appeal from U.S. District Court for the Western District of Missouri - Kansas City
(4:17-cr-00393-BCW-1)
______________________________________________________________________________
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
August 24, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

App B
Appellate Case: 19-2055

Page: 1

Date Filed: 08/24/2020 Entry ID: 4948308

